HHS/OIG, Audit -"Family Planning Under Managed Care,"(A-07-04-01005)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Family Planning Under Managed Care," (A-07-04-01005)
March 24, 2005
Complete
Text of Report is available in PDF format (427 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine if Colorado claimed Medicaid family planning costs under
managed care in accordance with Federal laws and regulations.  We
found that Colorado did not claim Medicaid family planning costs under managed care in accordance with Federal laws and
regulations.  As a result, for the period October 1999 through December 2003, Colorado received $1,587,305 of net
overpayments that did not qualify for Federal Medicaid reimbursement.   We recommended that Colorado:  (1)
refund $1,587,305 of net overpayments, (2) ensure family planning costs are supported by accurate and reliable information,
and (3) verify the accuracy of family planning claims submitted for Federal reimbursement.   Colorado
agreed with our findings and recommendations.  We commend Colorado for taking steps to develop a more reliable method
for identifying family planning services and claiming family planning costs.